                                                 NATIONAL SCIENCE FOUNDATION
                                                                                                   I
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

    o                                       CLOSEOUT MEMORANDUM
                                                                                                   I




Case Number: I0801002                                                                       Page 1 of 1



         The Office of Investigations (01) initiated an investigation based upon a referral from the office
         of Audits (OA). An OIG audit found that a             claimed inaccurate expenses for a National
         Science Foundation (NSF) award.2 The investigation found no fraud or improprieties relating to
         the grantee's reporting of expenses or use of NSF funds. Accordingly, this case is closed.
                                                                                                   I




NSF OIG Form 2 (1 1/02)
